                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A10050035                                                                       Page 1 of 1



                                1
                 A University conducted an inquiry into allegations of data fabrication and falsification
         raised against an NSF-funded2 faculty member (Subject). 3 The University determined an
         investigation was warranted and we referred the investigation to the University.

                The University concluded, based on a preponderance of the evidence, that the Subject's
         behavior "indicates the abdication of supervision and oversight responsibilities which borders on
         being reckless" because he did not adequately monitor his laboratory conditions. It found no
         evidence that the Subject forced others to manipulate data. The Subject was reprimanded and
         prohibited for one year from supervising graduate students and other research staff.

                We reviewed the case materials, University Report, statements of the Subject and
         Complainant, and materials related to a previous case. 4 While we determined the allegations
         made seemed highly credible, we could not establish by a preponderance of the evidence that the
         Subject had instructed his research staff to fabricate/falsify data or was otherwise directly
         involved in the data fabrication/falsification. We therefore conclude that there is insufficient
         evidence to substantiate the allegations.

                 However, we concluded the Subject failed to perform due diligence in overseeing his
         laboratory and his assistants, in monitoring the laboratory conditions, and in reviewing their
         work. We sent a strongly worded questionable research practice letter to the Subject, reminding
         him of his responsibilities and indicating that similar future allegations made against him would
         likely result in our office recommending that NSF make a finding of research misconduct.

                   Accordingly, this case is closed with no further action taken.




NSF OIG Fonn 2 (11/02)
